                               Office of the Inspector General

September 30, 1998

Carolyn Colvin

Deputy Commissioner for Operations


Assistant Inspector General

 for Audit



Status of Individuals Suspended as a Result of the Southwest Tactical Operations Plan



The attached final management advisory report presents the results of our review

entitled, “Status of Individuals Suspended as a Result of the Southwest Tactical

Operations Plan” A-06-98-61006. The objective of this review was to present the

current payment status of individuals suspended as a result of the Southwest Tactical

Operations Plan (STOP) and the status of overpayments for the suspended individuals.


You may wish to comment on any further action taken or contemplated. If you choose

to offer comments, please provide them within the next 60 days. If you wish to discuss

the final management advisory report, please call me or have your staff contact

Bill Fernandez, Director, Western Program Audits, at (510) 970-1739.





                                                 Pamela J. Gardiner

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




    STATUS OF INDIVIDUALS
    SUSPENDED AS A RESULT
      OF THE SOUTHWEST
  TACTICAL OPERATIONS PLAN


  September 1998   A-06-98-61006



 MANAGEMENT

ADVISORY REPORT

                               Office of the Inspector General

September 30, 1998

Carolyn Colvin

Deputy Commissioner for Operations


Assistant Inspector General

 for Audit



Status of Individuals Suspended as a Result of the Southwest Tactical Operations Plan



The objective of this management advisory report was to present the current payment

status of individuals suspended as a result of the Southwest Tactical Operations Plan

(STOP) and the status of overpayments for the suspended individuals. The review was

done in response to concerns expressed by Social Security Administration (SSA) staff

that Supplemental Security Income (SSI) recipients whose benefits are suspended

based on their not residing in the United States are able to reestablish eligibility and that

overpayments related to the period of nonresidency are difficult to recover.


BACKGROUND

SSI has specific eligibility requirements. One of the primary eligibility requirements is
that individuals must be U.S. residents and either citizens, nationals, or eligible aliens.
Residency requires that individuals maintain a continued presence in the United States.

SSA staff in field offices along the U.S.-Mexican border have alleged that individuals are
qualifying for SSI while in the United States and subsequently moving to a foreign
country or failing to maintain a continued presence in the United States. SSA’s Office of
the Inspector General implemented STOP in El Paso, Texas, to determine if individuals
were fraudulently receiving SSI payments. The pilot project was intended to identify
and suspend SSI payments to recipients receiving payments based on fraudulent
statements regarding residency.

Between November 1996 and February 1997, we collected proof of U.S. residency from
all SSI recipients who provided SSA with residence addresses in two ZIP codes for
El Paso, Texas. If recipients were unable to provide proof of U.S. residency, we
suspended their SSI payments. We identified 153 recipients (out of a population of
2,089 recipients) who failed to meet the residency requirements and whose payments
were suspended.
Page 2 – Carolyn Colvin

In March 1998, we obtained copies of computerized SSA records for the 153 individuals
suspended as a result of STOP. We reviewed these records to determine if individuals
had reapplied for SSI, whether they were again receiving SSI, and whether they repaid
or were in the process of repaying any overpayments.

RESULTS

Approximately 1 year after completion of field work for STOP, 24 out of the
153 suspended recipients (15.7 percent) were again receiving SSI payments.1 These
individuals apparently were able to provide sufficient proof of U.S. residency to
reestablish SSI eligibility. Under current regulations, residency is reestablished by living
in the United States for 30 consecutive days. Moreover, there are no penalties related
to the prior determination that the individuals improperly received SSI benefits while not
living in the country.

As of March 1998, 32 of the 153 suspended recipients (20.9 percent) were repaying
their overpayments. Of these, 15 were using their reinstated SSI payments, 14 were
using their title II benefits, and 3 were using other sources. However, the length of time
it will take the recipients to repay their overpayments (using current monthly repayment
amounts) ranged from 9 months to 50 years, with an average of 15 years. Current
regulations limit repayment amounts based on individuals’ financial need and, for those
also receiving title II benefits, do not permit title II benefit offsets to repay SSI
overpayments, except with the express consent of the beneficiary.

SSA had initiated recovery actions but received no repayments for 87 of the
153 suspended recipients (56.9 percent). SSA referred 58 cases to the Department of
the Treasury to institute income tax refund offsets and 18 cases to payment centers to
send overpayment notices. For the remaining 11 cases, SSA had attempted other
collection methods. In addition, 24 of the 87 individuals who were receiving title II
benefits that were not being reduced to repay the overpayments.

There were no overpayment collection actions taken for the remaining 34 suspended
recipients. SSA deemed the overpayments uncollectable for 17 cases because the
individuals were out of the country or considered unable to repay the debt. Records for
eight of the suspended recipients indicated no overpayment, apparently because the
individuals were able to provide evidence indicating they were U.S. residents during the
time in question. For three cases where the overpayments were minor, SSA waived
them. SSA also terminated collection action in three cases where the individuals had
recently died. (Information on three individuals was not available.)




1
  The payments for the remaining individuals were terminated (93 or 60.8 percent) or in nonpayment
status (36 or 23.5 percent) at the time of our review.
Page 3 – Carolyn Colvin

CONCLUSIONS

There were 24 of the 153 suspended SSI recipients who were receiving payments again
at the time of our review. At the same time, only 32 individuals (or about 21 percent of
those suspended) were repaying their overpayments. In addition, for most of those
32 individuals, the repayment amounts were so small that recovery of the entire
overpayment will not occur for years, if at all. SSA has included provisions in current
legislative proposals to improve the SSI program that would address these concerns.
As a result, we are making no further recommendations at this time. The results of this
review support the need for the following provisions in proposed legislation.

   •	 Enact administrative sanctions for individuals who make false statements of
      residency in order to receive SSI payments.

   •   Authorize mandatory collection of SSI overpayments from title II payments.

   •   Increase the percentage of SSI payments allowed for collection of overpayments.

   •	 Extend to the SSI program all of the debt collection authorities currently available
      for title II.




                                                Pamela J. Gardiner
APPENDICES

                                                      APPENDIX A



   MAJOR REPORT CONTRIBUTORS


Office of the Inspector General

William Fernandez, Director, Program Audits (West)


Brian Pattison, Deputy Director


Billy Mize, Senior Auditor


George De Luna, Senior Evaluator

                            APPENDIX B



SSA ORGANIZATIONAL CHART

